                           DJ.I'.\R T \I r.:\T c >I    Hr. \1 . r1 1 \:\D HL                           .\ 1.\' . r. R\ ' TCE~


                      OFFICE OF INSPECTOR GENERAL
                                                  \\ \ .... 111'\t ' II J'\ . I J(   . ~tl'._'tt   I



                                                       JUN 11 2014

TO: 	               Marilyn Tavenner
                    Administrator
                    Centers for Medicare & Medicaid Services

                        /S/
FROM:               Brian P. Ritchie
                    Acting Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report : Part D Plans Generally Include Drugs Commonly
           Used by Dual Eligibles: 2014 , OEI-05-14-00170


This memorandum report fulfills the annual reporting mandate from the Patient
Protection and Affordable Care Act of 20 I 0 (ACA) for 2014 . The ACA requires that the
Office of Inspector General (OIG) conduct a study of the extent to which formularies
used by stand-alone prescription drug plans (PDP) and Medicare Advantage prescription
drug plans (MA-PD) under Medicare Part D include drugs commonly used by full-benefit
dual-eligible indi viduals (i.e. , individuals who are eligible for both Medicare and
Medicaid and who receive full Medicaid benefits and assistance with Medicare premiums
and cost-sharing) . 1 Pursuant to the ACA, OIG must annually issue a report, with
recommendations as appropriate. This is the fourth report that OIG has produced to meet
this mandate . For the relevant text of the ACA , see Appendix A

SUMMARY

Pursuant to the Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (MMA) , comprehensive prescription drug coverage under Medicare Part D is
available to all Medicare beneficiaries through PDPs and MA-PDs (hereinafter referred
to collectively as Part D plans). 2

For beneficiaries who are eligible for Medicare and Medicaid (hereinafter referred to as
dual eligibles) , Medicare covers Part D plan premiums, deductibles, and other
cost-sharing up to a determined premium benchmark that varies by region.

1
    ACA. P.L No. 111-148 § 3313(a), 42 U.S.C. § 1395w-101 note . 

2
    MMA . P.L N o. 108-173 § 101 , Social Security Act,§ 18600- l (a) , 42 U.S.C. § 1395w-l0l(a). 

Page 2 – Marilyn Tavenner


If dual eligibles enroll in Part D plans with premiums higher than the regional
benchmark, they are responsible for paying the premium amounts above that benchmark.

To control costs and ensure the safe use of drugs, Part D plans are allowed to establish
formularies from which they may omit drugs from prescription coverage and control drug
utilization through utilization management tools.3 These tools include prior
authorization, quantity limits, and step therapy.4

The Centers for Medicare & Medicaid Services (CMS) annually reviews Part D plan
formularies to ensure that they include a range of drugs in a broad distribution of
therapeutic categories or classes. CMS also assesses the utilization management tools
present in each formulary.

For this memorandum report, we determined whether the 329 unique formularies used by
the 3,309 Part D plans operating in 2014 cover the 200 drugs most commonly used by
dual eligibles. We also determined the extent to which those commonly used drugs are
subject to utilization management tools.

Overall, we found that the rate of Part D plan formularies’ inclusion of the drugs
commonly used by dual eligibles is high, with some variation. On average, Part D plan
formularies include 96 percent of the commonly used drugs. In addition, 64 percent of
the commonly used drugs are included by all Part D plan formularies.

We also found that from 2013 to 2014, the proportion of unique drugs subject to
utilization management tools remained the same. On average, formularies applied
utilization management tools to 28 percent of the unique drugs we reviewed in both 2013
and 2014.

The results of our analysis for 2014 are largely unchanged from OIG’s findings in 2011,
2012, and 2013.5, 6 7




3
  A formulary is a list of drugs covered by a Part D plan. Part D plans can exclude drugs from their 

formularies and can control utilization for formulary-included drugs within certain parameters. Social 

Security Act § 1860D-4(b) and (c), 42 U.S.C. § 1395w-104(b) and (c). 

4
  Prior authorization—often required for very expensive drugs—requires that physicians obtain approval

from Part D plans to prescribe a specific drug. Quantity limits are intended to ensure that beneficiaries 

receive the proper dose and recommended duration of drug therapy. Step therapy is the practice of 

beginning drug therapy for a medical condition with the most cost-effective or safest drug therapy and 

progressing if necessary to more costly or risky drug therapy. 

5
  OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles, OEI-05-10-00390, 

April 2011. 

6
  OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012, 

OEI-05-12-00060, June 2012. 

7
  OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013, 

OEI-15-13-00090, June 2013. 



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 3 – Marilyn Tavenner


BACKGROUND

The Medicare Prescription Drug Benefit
Beginning in 2006, the MMA made comprehensive prescription drug coverage under
Medicare Part D available to all Medicare beneficiaries.8 Medicare beneficiaries
generally have the option to enroll in a PDP and receive all other Medicare benefits on a
fee-for-service basis, or to enroll in an MA-PD and receive all of their Medicare benefits,
including prescription drug coverage, through managed care. As of March 2014,
approximately 37.3 million of the 50.8 million Medicare beneficiaries were enrolled in a
Part D plan.

Part D plans are administered by private companies, known as plan sponsors, that
contract with CMS to offer prescription drug coverage in one or more PDP or MA-PD
regions. CMS has designated 34 PDP regions and 26 MA-PD regions.9 In 2014, plan
sponsors offer 3,309 unique Part D plans, with many plan sponsors offering multiple
Part D plans.

Dual Eligibles Under Medicare Part D
Approximately 9.7 million Medicare beneficiaries are dual eligibles. About 7 million
dual eligibles, referred to as “full-benefit dual eligibles,” receive full Medicaid benefits
and assistance with Medicare premiums and cost-sharing.10 Other dual eligibles receive
assistance with only their Medicare premiums or cost-sharing, depending on their level of
income and assets.

Dual eligibles are a particularly vulnerable population. Overall, most dual eligibles have
very low incomes: 86 percent have annual incomes below 150 percent of the Federal
poverty level, compared with 22 percent of all other Medicare beneficiaries.11
Additionally, dual eligibles are in worse health than the average Medicare beneficiary:
half are in fair or poor health, more than twice the rate of others in Medicare.12 Because
of their self-reported health needs, dual eligibles may use more prescription drugs and
health care services in general than other Medicare beneficiaries.

Until December 31, 2005, dual eligibles received outpatient prescription drug benefits
through Medicaid. In January 2006, Medicare began covering outpatient prescription
drugs for dual eligibles through Part D plans.13


8
  MMA, P.L. No. 108-173 § 101, Social Security Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a). 

9
  CMS, Prescription Drug Benefit Manual (PDBM), Pub. 100-18, ch. 5, Appendixes 2 and 3. Accessed at 

http://www.cms.gov/Medicare/Prescription-Drug-Coverage/PrescriptionDrugCovContra/

PartDManuals.html on October 19, 2012. 

10
   Kaiser Family Foundation, Dual Eligibles: Medicaid’s Role for Dual Eligible. Accessed at 

http://kaiserfamilyfoundation.files.wordpress.com/2013/08/7846-04-medicaids-role-for-dual-eligible-
beneficiaries.pdf on April 21, 2014.. 

11
   Kaiser Family Foundation, Medicare’s Role for Dual Eligible Beneficiaries. Accessed at 

http://www.kff.org/medicare/upload/8138-02.pdf on November 20, 2012.

12
   Ibid. 

13
   MMA, P.L. No. 108-173 § 101. 



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 4 – Marilyn Tavenner


Medicare covers Part D plan premiums, deductibles, and other cost-sharing for dual
eligibles up to a determined premium benchmark. The benchmark is a statutorily defined
amount that is based on the average premium amounts for Part D plans for each
region.14, 15 If dual eligibles enroll in Part D plans with premiums higher than the
regional benchmark, they are responsible for paying the premium amounts above that
benchmark.16

Dual eligibles’ assignment to Part D plans. When individuals become eligible for both
Medicare and Medicaid, CMS randomly assigns those individuals to PDPs unless they
have elected a specific Part D plan or have opted out of Part D prescription drug
coverage.17 CMS assigns dual eligibles to PDPs that meet certain requirements, such as
having a premium at or below the regional benchmark amount and offering basic
prescription drug coverage (or equivalent).18 Basic prescription drug coverage is defined
in terms of benefit structure (initial coverage, coverage gap, and catastrophic coverage)
and costs (initial deductible and coinsurance).

Some dual eligibles may be randomly assigned to PDPs that do not cover the specific
drugs they use. However, unlike the general Medicare population, dual eligibles can
switch plans at any time to find Part D plans that cover the prescription drugs they
require.19 When dual eligibles change plans, their prescription drug coverage under their
new Part D plans becomes effective at the beginning of the following month.

CMS annually reassigns some dual eligibles to new PDPs if their current PDPs will have
premiums above the regional benchmark premium for the following year.20 CMS
reassigns dual eligibles who were randomly assigned to their current PDPs to new PDPs
that will have premiums at or below the regional benchmark premium.21 In addition,
CMS notifies dual eligibles who elected their current Part D plans that their plans will
have premiums above the regional benchmark premium. For 2014, CMS reported
reassigning approximately 370,000 Medicare beneficiaries, including but not exclusively
dual eligibles, because of premium increases.




14
   42 CFR § 423.780(b)(2)(i). 

15
   Social Security Act, § 1860D-14(a)(3)(f), 42 U.S.C. § 1395w-114(a)(3)(f). Dual eligibles residing in

territories are not eligible to receive cost-sharing assistance from Medicare. As such, there are no

benchmarks for Part D plans offered in the territories. 

16
   Patient Protection and Affordable Care Act (ACA), P.L. No. 111-148 § 3303, Social Security Act, 

§ 1860D 14(a)(5), 42 U.S.C. § 1395w-114(a)(5). The ACA established a “de minimis” premium policy, 

whereby a Part D plan may elect to charge dual eligibles the benchmark premium amount if the Part D 

plan’s basic premium exceeds the regional benchmark by a de minimis amount. For 2013, CMS set the 

de minimis amount at $2 above the regional benchmark.

17
   CMS, PDBM, ch. 3, § 40.1.4. 

18
   Ibid. 

19
   Ibid., § 30.3.2. In general, Medicare beneficiaries can switch Part D plans only once a year during a 

defined enrollment period. 

20
   Ibid., § 40.1.5.

21
   Ibid., § 40.1.5. 



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 5 – Marilyn Tavenner


Part D Prescription Drug Coverage
Under Part D, plans can establish formularies from which they may exclude drugs and
control drug utilization within certain parameters. These parameters are intended to
balance Medicare beneficiaries’ needs for adequate prescription drug coverage with
Part D plans’ needs to contain costs. Generally, a formulary must include at least
two drugs in each therapeutic category or class.22, 23 In addition, Part D plans must
include Part D-covered drugs in certain categories and classes.24

Part D plans may also control drug utilization by applying utilization management tools.
These tools include requiring prior authorization to obtain drugs that are on plan
formularies, establishing quantity limits, and requiring step therapy. Utilization
management tools can help Part D plans and the Part D program limit the cost of
prescription drug coverage by placing restrictions on the use of certain drugs.

In addition to these drug coverage decisions made regarding individual formularies,
certain categories of drugs are excluded from Medicare Part D prescription drug coverage
as mandated by the MMA.25 For example, prescription vitamins, prescription mineral
products, and nonprescription drugs are excluded from Part D prescription drug
coverage.26

Until 2013, barbiturates and benzodiazepines were excluded from Part D prescription
drug coverage. However, the ACA reversed this exclusion, removing these two drug
types from the list of drug classes ineligible for Part D prescription drug coverage.27, 28

CMS Efforts To Ensure Prescription Drug Coverage
Formulary review. CMS annually reviews Part D plan formularies to ensure that they
include a range of drugs in a broad distribution of therapeutic categories or classes and
include all drugs in specified therapeutic categories or classes.29 During this review,
CMS analyzes formularies’ coverage of the drug classes most commonly prescribed for
the Medicare population. CMS intends for Part D plans to cover the most widely used
medications, or therapeutically alternative medications (e.g., drugs from the same
therapeutic category or class), for the most common conditions. CMS uses Part D
prescription drug data to identify the most commonly prescribed classes of drugs.30


22
   CMS, PDBM, ch. 6, § 30.2.1. 

23
   Therapeutic categories or classes classify drugs according to their most common intended uses. For

example, cardiovascular agents compose a therapeutic class intended to affect the rate or intensity of

cardiac contraction, blood vessel diameter, or blood volume. 

24
   ACA, P.L. No. 111-148 § 3307, Social Security Act, § 1860D 4(b)(3)(G), 42 U.S.C.

§ 1395w-104(b)(3)(G).

25
   MMA, P.L. No. 108-173 § 101, Social Security Act, § 1860D-2(e), 42 U.S.C. § 1395w-102(e). 

26
   Social Security Act § 1860D-2(e)(2), 1927(d)(2), 42 U.S.C. § 1395w-102(e)(2), 1396r-8(d)(2).

27
   ACA, P.L. No. 111-148 § 2502, Social Security Act, § 1397r-8(d).

28
   CMS, Transition to Part D Coverage of Benzodiazepines and Barbiturates Beginning in 2013. Accessed 

at http://www.cms.gov/Medicare/Prescription-Drug-Coverage/PrescriptionDrugCovContra/Downloads/ 

BenzoandBarbituratesin2013.pdf on January 17, 2013. 

29
   CMS, PDBM, ch. 6, §§ 30.2.1 and 30.2.5. 

30
   Ibid., § 30.2.7.



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 6 – Marilyn Tavenner


CMS also assesses each formulary’s utilization management tools to ensure consistency
with current industry standards and with standards that are widely used with drugs for the
elderly and people with disabilities.31, 32, 33

Exceptions and appeals process. CMS has implemented an exceptions and appeals
process whereby beneficiaries can request coverage of nonformulary drugs.
Beneficiaries apply to their Part D plans for exceptions to obtain coverage of
nonformulary drugs. Generally, Part D plans must make determinations within 72 hours
or, for expedited requests, within 24 hours.34 If their plans make negative determinations,
beneficiaries have the right to appeal.35 If their plans deny their appeals, beneficiaries
would need to get prescriptions from their physicians for therapeutically alternative drugs
that are covered by their plans.

Transitioning new enrollees to Part D. CMS requires that Part D plans establish a
transition process for new enrollees (including dual eligibles) who are transitioning to
their respective Part D plans either from different Part D plans or from other prescription
drug coverage. During Medicare beneficiaries’ first 90 days under a new Part D plan, the
new plan must provide one temporary refill of a prescription when beneficiaries request
either a drug that is not in the plan’s formulary or a drug that requires prior authorization
or step therapy under the formulary’s utilization management tools.36 The temporary fill
accommodates beneficiaries’ immediate drug needs the first time they attempt to fill a
prescription. The transition period also allows beneficiaries time to work with their
prescribing physicians to obtain prescriptions for therapeutically alternative drugs or to
request formulary exceptions from Part D plans.

Related OIG Work
In 2006, OIG published a report assessing the extent to which PDP formularies included
drugs commonly used by dual eligibles under Medicaid. The study found that PDP
formularies included between 76 and 100 percent of the 178 drugs commonly used by
dual eligibles under Medicaid prior to the implementation of Part D. Approximately half
of the 178 commonly used drugs were covered by all formularies.37

In 2011, OIG issued the first annual mandated memorandum report examining dual
eligibles’ access to drugs under Medicare Part D.38 In 2012, OIG issued the second
annual mandated memorandum report examining dual eligibles’ access to drugs under


31
   CMS, PDBM, ch. 6, § 30.2.2. 

32
   Ibid., § 30.2.7.

33
   CMS looks to appropriate guidelines from expert organizations such as the National Committee for 

Quality Assurance, the Academy of Managed Care Pharmacy, and the National Association of Insurance 

Commissioners.

34
   CMS, PDBM, ch. 18, §§ 130.1 and 130.2. 

35
   Ibid., § 60.1. 

36
   Ibid., ch. 6, § 30.4.4. 

37
   OIG, Dual Eligibles’ Transition: Part D Formularies’ Inclusion of Commonly Used Drugs, 

OEI-05-06-00090, January 2006. 

38
   OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles. 



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 7 – Marilyn Tavenner


Medicare Part D.39 In 2013, OIG issued the third annual mandated memorandum report
examining dual eligibles’ access to drug under Medicare Part D.40 In the current
memorandum report, we compare the results from 2013 and 2014.

METHODOLOGY

Scope
As mandated in the ACA, this study assessed the extent to which drugs commonly used
by dual eligibles are included by Part D plan formularies. To make this assessment, we
evaluated formularies for Part D plans operating in 2014. As part of our assessment, we
included dual eligibles’ enrollment data from March 2014, the most recent enrollment
data available from CMS at the time of our study. We also compared the results of our
2014 study with those of our 2013 study.41

The ACA did not define which drugs commonly used by dual eligibles we should review.
We defined drugs commonly used by dual eligibles as the 200 drugs with the highest
utilization by dual eligibles as reported in the latest Medicare Current Beneficiary Survey
(MCBS). We used the MCBS because it contains drugs that dual eligibles received
through multiple sources (e.g., Part D, Medicaid, and the Department of Veterans
Affairs) and, as such, it provides a comprehensive picture of drug utilization. Of the
200 highest utilization drugs identified using the MCBS, 195 are eligible for coverage
under Part D. In this report, we refer to these 195 Part D-eligible high-utilization drugs
as “commonly used drugs.”

The 200 drugs with the highest utilization by dual eligibles referenced in this
2014 memorandum report are similar but not identical to the list of drugs referenced in
the 2013 memorandum report. Specifically, 182 (91 percent) of the 200 drugs listed in
the 2013 report are also listed in this 2014 report.

For each study, OIG went beyond the ACA’s mandate by reviewing drug coverage for all
dual eligibles under Medicare Part D, rather than only for full-benefit dual eligibles.
With the data available for this study, we could not confidently identify and segregate
full-benefit dual eligibles—and thus the drugs they used—from the total population of
dual eligibles.

We also went beyond the ACA’s mandate in both the 2013 and 2014 reports by
examining the utilization management tools that Part D plan formularies apply to the
drugs commonly used by dual eligibles. These tools may affect dual eligibles’ access
even in cases where formularies include the commonly used drugs. Analyzing the extent
to which Part D plan formularies apply these tools to drugs commonly used by dual
eligibles allows us to provide a comprehensive picture of Part D plan formularies’
coverage of, and dual eligibles’ access to, those drugs.


39
   OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2012.
40
   OIG, Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2013.
41
   Ibid.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 8 – Marilyn Tavenner


Data Sources
MCBS. We used 2010 MCBS Cost and Use data to create a list of the 200 drugs with the
highest utilization by dual eligibles. The MCBS Cost and Use data contain information
on hospitals, physicians, and prescription drug costs and utilization. The 2010 MCBS
Cost and Use data are the most recent data available.

The MCBS is a CMS-conducted continuous, multipurpose survey of a representative
national sample of the Medicare population, including dual eligibles. Sampled Medicare
beneficiaries are interviewed three times per year and asked what drugs they are taking
and whether they have started taking any new drugs since the previous interview. The
MCBS also includes Part D prescription drug events for surveyed Medicare beneficiaries.
In 2010, the MCBS surveyed 10,741 Medicare beneficiaries, of which 2,046 were dual
eligibles who had used prescription drugs during the year (out of 2,274 dual-eligible
survey respondents).

First Databank National Drug Data File. We used the November 2012 and
December 2013 First DataBank National Drug Data File to identify the drug product
information for the 200 drugs with the highest utilization by dual eligibles. The National
Drug Data File is a database containing information—such as drug name, therapeutic
category or class, and the unique combination of active ingredients—for each drug
defined by the Food and Drug Administration’s National Drug Code (NDC).42

Part D plan data. In November 2013 and January 2014, we collected from CMS
formulary data and plan data for Part D plans operating in 2014. The November 2013
Part D formulary data include Part D plans’ formularies and utilization management tools
for plans operating in 2014. In 2014, there are 329 unique formularies offered by
3,309 Part D plans. The January 2014 Part D plan data provide information such as the
State in which a Part D plan is offered, whether the Part D plan is a PDP or an MA-PD,
and whether the Part D plan premium is below the regional benchmark.

We also collected 2014 Part D plan enrollment data. These data provide the number of
dual eligibles enrolled in each Part D plan as of March 2014.

Determining the Most Commonly Used Drugs
To determine the drugs most commonly used by dual eligibles, we took the following
steps:

     1.	 Created a list of all drugs reported by dual eligibles surveyed in the MCBS. We
         excluded respondents from territories because they are not eligible to receive
         cost-sharing assistance under Part D. There were 150,106 drug events listed for
         2,046 MCBS-surveyed dual eligibles who did not reside in territories.43

42
   An NDC is a three-part universal identifier that specifies the drug manufacturer’s name, the drug form
and strength, and the package size.
43
   For the purposes of this report, a drug event is a MCBS survey response indicating that the responding
beneficiary took a specific drug at least once in 2010. For example, one MCBS survey respondent reported
taking atenolol 8 times in 2010. We counted this beneficiary/drug combination as 8 drug events.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 9 – Marilyn Tavenner


   2.	 Collapsed this list to a list of drugs based on their active ingredients, using the
       Ingredient List Identifier located in First DataBank’s National Drug Data File.
       For example, a multiple-source drug such as fluoxetine hydrochloride (the active
       ingredient for the multiple-source brand-name drug Prozac) has only one entry on
       our list, covering all strengths of both the brand-name drug Prozac and the generic
       versions of fluoxetine hydrochloride available. From this point forward, unless
       otherwise stated, we will use the term “drug” to refer to any drug in the same
       Ingredient List Identifier category, and the term “unique drug” to refer to an NDC
       corresponding to a drug, as a given drug can have multiple NDCs. This process
       left 150,106 drug events associated with 901 drugs.

   3.	 Ranked the 901 drugs by frequency of utilization, weighting the drug-event
       information from MCBS by sample weight.

   4.	 Selected the 200 drugs with the highest utilization by dual eligibles. For a full list
       of the top 200 drugs, see Appendix B.

   5.	 Removed all drugs not covered under Part D. Of the 200 drugs with the highest
       utilization, 195 are eligible under Part D, 3 fell into drug categories excluded
       under Part D, 1 is no longer prescribed in the form taken by beneficiaries
       surveyed in the 2010 MCBS, and 1 is no longer available in the United States.
       For details on the five drugs excluded under Part D, see Appendix C.

Formulary Analysis
We analyzed the 329 unique Part D plan formularies to determine their rates of inclusion
of the 195 drugs commonly used by dual eligibles. We counted a drug as included in a
Part D plan’s formulary if the formulary included the active ingredient. When a drug
included multiple ingredients that could be dispensed separately and combined by the
patient to the same effect as the combined drug, we treated the drug as included if the
ingredients were included in the formulary either separately or in combination.

Low rates of inclusion by formularies. We determined which of the 195 commonly used
drugs had low rates of inclusion by formularies by counting how many of the
329 formularies covered each drug. We considered a drug to have a low rate of inclusion
if it was included by 75 percent or less of formularies. For such drugs, we counted the
number of drugs (if any) that each formulary covered in the same therapeutic category or
class.

We conducted this analysis to ensure that dual eligibles have access to therapeutically
similar drugs. We also conducted additional research to identify potential reasons why
some of the 195 commonly used drugs were included by less than 75 percent of
formularies.

Utilization management tools. We determined the extent to which Part D plans apply
utilization management tools to the 195 drugs that we reviewed. The tools that we
reviewed are prior authorization, quantity limits, and step therapy.



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 10 – Marilyn Tavenner


To determine the extent to which the 195 commonly used drugs are subject to utilization
management tools, we conducted an analysis of the NDCs that correspond to the
commonly used drugs. Part D plan formularies do not apply utilization management
tools at the active ingredient level. Rather, Part D plan formularies apply utilization
management tools at a more specific level that identifies whether a drug is brand-name or
generic and its dosage form, strength, and route of administration, irrespective of package
size. To conduct this analysis, we determined the NDCs (unique drugs) associated with
each of the 195 commonly used drugs that are on each Part D formulary. We then
calculated the percentage of unique drugs to which each Part D plan formulary applies
utilization management tools.

Enrollment Analysis
We weighted the formulary analysis by dual-eligible enrollment and weighted the
utilization management tool analysis by both dual-eligible enrollment and Medicare
enrollment. To do this, we applied March 2013 enrollment data to 2013 Part D plans.

Data Limitations
We did not assess individual dual eligibles’ prescription drug use or whether individual
dual eligibles are enrolled in Part D plans that include the specific drugs that each
individual uses. Because we relied on a sample of dual eligibles responding to the MCBS
to develop our list of commonly used drugs, a particular dual eligible might not use any
of the drugs on our list. However, the drugs most commonly used by dual-eligible
MCBS survey participants in 2010 account for 87 percent of all prescriptions dispensed
to the dual-eligible respondents in the 2010 MCBS.

Because the lists of commonly used drugs in the 2013 and 2014 memorandum reports are
not identical, changes in rates of inclusion by formularies and in application of utilization
management tools between 2013 and 2014 may reflect changes as to which specific drugs
were included in the lists, rather than changes regarding any specific drug. However, the
two lists largely overlap; 91 percent of the drugs reviewed in the 2013 report are the same
as those reviewed in this 2014 report.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Part D Plan Formularies Include Between 86 and 100 Percent of the Drugs
Commonly Used by Dual Eligibles
On average, Part D plan formularies include 96 percent of the drugs commonly used by
dual eligibles. Of the 329 unique formularies used by Part D plans in 2014,
18 formularies include 100 percent of the commonly used drugs. At the other end of the
inclusion range, three formularies include 86 percent of the commonly used drugs. CMS
generally requires Part D plan formularies to include at least two drugs, rather than all
drugs, in each therapeutic category or class. Therefore, Part D plan formularies may still



Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 11 – Marilyn Tavenner


meet CMS’s formulary requirements even if they do not include all of the drugs we
identified as commonly used by dual eligibles.

Part D plan formularies’ inclusion of the drugs commonly used by dual eligibles in 2014
is nearly identical to that of 2013. The average rate of inclusion—96 percent—was
unchanged between 2013 and 2014. The ranges of inclusion in 2013 and 2014 are almost
the same—in 2013, the rates of inclusion ranged from 85 to 100 percent of the drugs
commonly used by dual eligibles, and in 2014, they ranged from 86 to 100 percent.

Nationally, PDP and MA-PD formularies include a similar average of the drugs
commonly used by dual eligibles: 94 percent and 96 percent, respectively. PDP
formularies’ rates of inclusion of the commonly used drugs ranged from 86 to
100 percent and MA-PD formularies’ rates ranged from 87 to 100 percent. Twenty-one
formularies—6 percent of the 329 unique formularies used by Part D plans in 2014—are
offered by both PDPs and MA-PDs.

Regionally, all dual eligibles have the choice of a Part D plan that includes at least
98 percent of the commonly used drugs. Every PDP region has a plan that includes at
least 99 percent of the commonly used drugs, and every MA-PD region has a plan that
covers at least 98 percent of these drugs. Appendix D provides a breakdown of
formulary inclusion by PDP and MA-PD region.

On average, formularies for Part D plans with premiums below the regional benchmark
include 95 percent of the drugs commonly used by dual eligibles. The percentage of
drugs included by Part D plans with premiums below the regional benchmark is
important because dual eligibles are automatically enrolled in, or annually reassigned to,
these plans. For drugs commonly used by dual eligibles, formularies for Part D plans
with premiums below the regional benchmark have a rate of inclusion that ranges from
86 percent to 100 percent. Approximately 83 percent of dual eligibles are enrolled in
Part D plans with premiums below the regional benchmark.

Ninety-nine percent of dual eligibles are enrolled in Part D plans that include at least
90 percent of the drugs commonly used by dual eligibles. Of the approximately
9.5 million dual eligibles enrolled in Part D plans, 99 percent are enrolled in Part D plans
that use formularies that include at least 90 percent of the commonly used drugs. Only
1 percent of dual eligibles are enrolled in Part D plans that use formularies that include
less than 90 percent of these drugs. Table 1 provides a breakdown of dual eligibles’
enrollment in Part D plans by the plans’ formulary inclusion rates.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 12 – Marilyn Tavenner

          Table 1: Enrollment of Dual Eligibles in Part D Plans and Formulary
          Inclusion of Commonly Used Drugs
           Part D Plans With Formularies That                     Number of Dual             Percentage of Dual
           Include:                                            Eligibles Enrolled*            Eligibles Enrolled
           100% of commonly used drugs                                      172,000                             2%
           95% to 99% of commonly used drugs                              3,453,000                            36%
           90% to 94% of commonly used drugs                              5,745,000                            61%
           85% to 89% of commonly used drugs                                120,000                             1%
              Total                                                       9,490,000                           100%
          Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles and dual eligibles’ 

          enrollment, 2014. 

          *Rounded to the nearest 1,000. 


The percentage of dual eligibles enrolled in Part D plans that include at least 90 percent
of the drugs commonly used by dual eligibles stayed consistent between 2013 and 2014
at 99 percent.

Sixty-Four Percent of the Drugs Commonly Used by Dual Eligibles Are Included in
All Part D Plan Formularies
Because most of the commonly used drugs are included in a large percentage of
formularies, dual eligibles are guaranteed that, regardless of the Part D plan in which they
are enrolled, the plan’s formulary will include many of these drugs. By drug, formulary
inclusion ranges from 45 percent to 100 percent. In other words, one drug commonly
used by dual eligibles is included in as few as 45 percent of Part D plan formularies, and
125 drugs are included in all plan formularies. The average rate of inclusion by
formularies is 96 percent. Table 2 provides a summary of rates of inclusion by
formularies. Appendix B provides rates of inclusion by formularies for each of the
commonly used drugs.
               Table 2: Formularies’ Rates of Inclusion of Commonly Used Drugs
                                                                    Percentage of the 195 Commonly
                  Percentage of the 329 Formularies                          Used Drugs Included in
                                                                                         Formularies
                                                                                                       64%
                  100%
                                                                                                (125 drugs)
                                                                                                       25%
                  85% to 99%
                                                                                                 (48 drugs)
                                                                                                        6%
                  75% to 84%
                                                                                                 (11 drugs)
                                                                                                        6%
                  45% to 74%
                                                                                                 (11 drugs)
                                                                                                    100%*
                      Total
                                                                                               (195 drugs)
                 Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2014.
                 * Percentages do not add to 100 percent because of rounding.


The rates of formulary inclusion of the drugs commonly used by dual eligibles in 2014
are similar to those in 2013. The percentage of commonly used drugs included in all
formularies remained the same between 2013 and 2014, at 64 percent.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
   Page 13 – Marilyn Tavenner


   Part D plan formularies include certain drugs less frequently than others. Of the
   commonly used drugs, 6 percent (11 drugs) are included by less than 75 percent of Part D
   plan formularies. Table 3 provides the percentage of formularies covering each of these
   11 drugs.

   The drugs that make up this group include both brand and generic drugs, and are used to
   treat a variety of primary indications. Five of the eleven drugs are brand-name drugs,
   which are typically more costly than generic drugs. In terms of primary indications, 3 of
   the 11 drugs are muscle relaxants, and the remaining drugs treat a variety of conditions
   including high cholesterol, anxiety, and insomnia.
   Table 3: Drugs Included by Less Than 75 Percent of Part D Plan Formularies
                                                                                                                             Rate of
 Generic Name of Drug                                                                         Primary Indication(s)     Inclusion by
                                                                                                                        Formularies
 Promethazine HCL                                                                                           Allergies           71%
 Valsartan*                                                                      Hypertension (high blood pressure)            71%
 Temazepam*                                                                                                Insomnia            65%
 Ezetimibe/simvastatin*                                                             Hyperlipidemia (high cholesterol)          64%
 Methocarbamol*                                                                                   Muscle relaxant              64%
                                                         Dyspepsia, peptic ulcer disease, gastroesophageal reflux
 Esomeprazole magnesium*                                                                                                       62%
                                                                              disease, Zollinger-Ellison syndrome
 Cyclobenzaprine HCL*                                                                             Muscle relaxant              59%
 Hydroxyzine pamoate                                                                                         Anxiety           54%
 Hydrocortisone acetate                                                                                 Hemorrhoids            51%
 Carisoprodol*                                                                                       Muscle relaxant           47%
 Darifenacin hydrobromide                                                                        Overactive bladder            45%
Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2014.
* These drugs also had low formulary inclusion rates in 2013.


   Although Part D formularies frequently omit these 11 drugs, they all cover other drugs in
   the same therapeutic classes. For these 11 drugs, 100 percent of formularies cover at
   least 1 drug in the same therapeutic class that is also on the list of 195 drugs commonly
   used by dual eligibles.

   The number of drugs included by less than 75 percent of formularies decreased from
   16 in 2013 to 11 in 2014. There are seven drugs with low inclusion rates in 2014 that
   were also on the list of commonly used drugs with low inclusion rates in our 2013 report;
   these drugs are noted in Table 3. Three of the low-inclusion drugs were also listed as
   low-inclusion drugs in our 2012 report.

   There are many potential reasons why a commonly used drug might be included by less
   than 75 percent of formularies:

         	 Seven of these drugs—carispoprodol, cyclobenzaprine HCl, darifenacin
            hydrobromide, hydroxyzine pamoate, methocarbamol, promethazine HCL,
            temazepam—are listed as being potentially inappropriate for older adults.




   Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 14 – Marilyn Tavenner


     	 Further, two of these drugs—cyclobenzaprine HCl and methocarbamol—are on
        CMS’s list of high-risk Part D medications, which may explain the low inclusion
        rates for these drugs.44
     	 Another drug—temazepam—is a benzodiazepine, a category of drugs that was
        excluded from Part D coverage until 2013. Temazepam was also on the list of
        drugs with low inclusion by formularies in 2013 report. The low inclusion rates
        for temazepam may be explained by CMS’s change in Part D coverage
        guidelines.

Low rates of inclusion by formularies may require dual eligibles to obtain a nonformulary
drug. There are several means by which dual eligibles can obtain a nonformulary drug,
all of which require them to take additional action. Obtaining therapeutically alternative
drugs requires that dual eligibles get new prescriptions from their doctors. Dual eligibles
may also submit statements of medical necessity from their physicians as part of appeals
to obtain coverage of nonformulary drugs.45 Finally, dual eligibles may switch to Part D
plans that include their drugs, with the new coverage becoming effective the following
month.46

The Percentage of Commonly Used Drugs Subject to Utilization Management Tools
by Plan Formularies Remained the Same Between 2013 and 2014
For the unique drugs that compose the list of commonly used drugs, the percentage
subject to utilization management tools by Part D plan formularies remained the same
with an average of 28 percent in both 2013 and 2014. Formularies for plans with
premiums below the regional benchmarks and for plans with premiums above the
benchmarks had the same percentage of drugs—28 percent—that were subject to
utilization management tools. See Table 4 for a breakdown of the percentage of unique
drugs to which Part D plan formularies apply utilization management tools in 2013 and
2014.




44
   This list—“Use of High-Risk Medications in the Elderly: High-Risk Medications” —is part of the
Healthcare Effectiveness and Information Set national drug code measures published by the National
Committee for Quality Assurance. A high-risk medication is a drug with a high risk of serious side effects
in the elderly. CMS uses this medication list to calculate the percentage of Medicare beneficiaries who
received at least one high-risk medication in the past year. CMS publishes this percentage and other Part D
patient safety measures so that Medicare beneficiaries can make informed decision in choosing a Part D
plan for their prescription drug coverage. National Committee on Quality Assurance, HEDIS 2012 NDC
List. Accessed at http://www.ncqa.org/HEDISQualityMeasurement/HEDISMeasures/HEDIS2012/
HEDIS2012FinalNDCLists.aspx on January 14, 2013 and at http://www.cms.gov/Medicare/Prescription-
Drug-Coverage/PrescriptionDrugCovGenIn/Downloads/Technical-Notes-2013-.pdf on March 25, 2013.
45
   CMS, PDBM, ch. 18, § 30.2.2.
46
   CMS, PDBM, ch. 3, § 30.3.2.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 15 – Marilyn Tavenner



   Table 4: Part D Plan Formularies’ Application of Utilization Management Tools to
   Commonly Used Drugs, 2013 to 2014
     Percentage of Unique Drugs                 Number of          Percentage of         Number of     Percentage of
     to Which Utilization                      2013 Part D           2013 Part D        2014 Part D      2014 Part D
     Management Tools Are                            Plan                  Plan               Plan             Plan
     Applied                                   Formularies          Formularies         Formularies     Formularies
     Greater than 40%                                      41                  13%                30             9%
     30% to 39%                                          116                   38%               136            41%
     20% to 29%                                            74                  25%               65             20%
     10% to 19%                                            34                  11%               75             23%
     Less than 10%                                         37                  12%               23              7%
         Totals                                          302                100%*                329          100%
   Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2014.
   * Percentages do not add to 100 percent because of rounding.


In 2014, the percentage of drugs subject to quantity limits remained essentially the same
while there was a slight decrease in the percentage of drugs subject to prior authorization
or step therapy. Formularies applied quantity limits to 24 percent of unique drugs in both
2013 and 2014. Formularies decreased the use of prior authorization from 5 percent to
3 percent and decreased the use of step therapy from 3 percent to 2 percent.

The rate at which plan formularies apply specific utilization management tools varies
widely. In 2014, some formularies applied utilization management tools to none of the
unique drugs, whereas at the other end of the range, some applied tools to 45 percent of
the unique drugs. More specifically, formularies apply quantity limits to 0–43 percent of
unique drugs, prior authorization to 0–9 percent, and step therapy to 0–16 percent.

Looking at enrollment across plans provides a slightly different picture than looking only
at plans themselves. On average, plan formularies in 2014 apply utilization management
tools to 28 percent of unique drugs. However, dual eligibles—and the Medicare
population as a whole—tend to be enrolled in plans with formularies that apply these
tools at a higher rate. When plans are weighted by dual-eligible enrollment, the median
plan applies such tools to 34 percent of unique drugs, a slight decrease from the 2013 rate
of 35 percent. Similarly, when plans are weighted by overall Medicare enrollment, the
median plan applies these tools to 33 percent of unique drugs in 2014, a slight increase
from 32 percent in 2013.

Both dual eligibles and Medicare beneficiaries overall tend to be enrolled in plans with
formularies that apply utilization management tools to between 30 and 45 percent of
unique drugs. In 2013, 68 percent of dual eligibles and 58 percent of Medicare
beneficiaries overall were enrolled in plans with formularies in this range. Table 5
provides a breakdown of dual eligibles and Medicare beneficiaries’ enrollment in Part D
plans by the percentage range of unique drugs to which formularies apply utilization
management tools.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 16 – Marilyn Tavenner

     Table 5: Beneficiary Enrollment in Part D Plans by Application of Utilization
     Management Tools to Commonly Used Drugs, 2013 to 2014
                                                                     Percentage of                               Percentage of
     Percentage of Unique Drugs to             Percentage of                               Percentage of
                                                                          Medicare                                    Medicare
     Which Plan Formularies Apply              Dual Eligibles                              Dual Eligibles
                                                                      Beneficiaries                               Beneficiaries
     Utilization Management Tools              Enrolled, 2013                              Enrolled, 2014
                                                                     Enrolled, 2013                              Enrolled, 2014
     Greater than 40%                                      18%                 20%                       5%                14%
     30% to 39%                                            44%                    34%                   63%                  44%
     20% to 29%                                            16%                    12%                    7%                    6%
     10% to 19%                                              6%                    5%                   24%                  32%
     Less than 10%                                         17%                    29%                    2%                    4%
         Totals                                          100%*                  100%                 100%*                  100%
     Source: OIG analysis of dual-eligible enrollment and Medicaid beneficiary enrollment by rates of utilization management tool

     application to drugs commonly used by dual eligibles, 2014. 

     *Percentages do not add to 100 percent because of rounding.



Further, although utilization management tools control access to drugs, they are
important tools for managing costs in Medicare and ensuring appropriate utilization of
drugs. For example, oxycodone HCl/acetaminophen drugs saw more than a 30-percent
increase in formulary application of utilization management controls in 2013. Such
limits may be intended to ensure appropriate utilization, as CMS’s Part D 2013 guidance
to Part D sponsors set forth expectations for opioid overutilization reviews to help ensure
that opioids are prescribed and used correctly.47

CONCLUSION

When establishing formularies and applying utilization management tools, Part D plans
need to balance Medicare beneficiaries’ needs for adequate prescription drug coverage
with the need to contain costs for themselves and for the Part D program. By law, Part D
plan formularies do not have to include every available drug. Rather, to meet CMS’s
formulary requirements, they must include at least two drugs in each therapeutic category
or class. For example, for each of the 11 drugs that this memorandum report identifies as
being included by less than 75 percent of Part D plan formularies, all Part D plan
formularies cover at least one therapeutically alternative drug. Part D plan formularies
may also institute utilization management tools to ensure appropriate utilization as well
as to control costs.

For the drugs commonly used by dual eligibles, we found that the rate of formulary
inclusion is high with some variation. On average, Part D plan formularies include
96 percent of the commonly used drugs. Part D plan formularies’ inclusion of the
commonly used drugs ranges from 86 percent to 100 percent. Formulary inclusion rates
are similar for PDPs and MA-PDs. Further, formularies for Part D plans with premiums
below the regional benchmark include the commonly used drugs at a rate similar to that
of Part D plan formularies overall.



47
 CMS, Supplemental Guidance Related to Improving Drug Utilization Review Controls in Part D.
Accessed at http://www.cms.gov/Medicare/Prescription-Drug-Coverage/PrescriptionDrugCovContra/
Downloads/HPMSSupplementalGuidanceRelated-toImprovingDURcontrols.pdf on January 16, 2013.


Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 17 – Marilyn Tavenner


Inclusion rates for the 195 drugs commonly used by dual eligibles are largely unchanged
compared with those from OIG’s 2013 memorandum report. Part D plan formularies
include roughly the same percentage of these commonly used drugs in 2014 as they did
in 2013. Enrollment in plans that cover at least 90 percent of unique drugs stayed
consistent, with 99 percent of dual eligibles enrolled in such plans.

Because some variation exists in Part D plan formularies’ inclusion of the commonly
used drugs and in their application of utilization management tools to these drugs, some
dual eligibles may need to use alternative methods to access the drugs they take. They
could appeal prescription drug coverage decisions, switch prescription drugs, or switch
Part D plans. These scenarios require additional effort by dual eligibles and may result in
administrative barriers to accessing certain prescription drugs.

As mandated by the ACA, OIG will continue to monitor the extent to which Part D plan
formularies cover drugs that dual eligibles commonly use. In addition, OIG will continue
to monitor Part D plan formularies’ application of utilization management tools to these
drugs.

This memorandum report is being issued directly in final form because it contains no
recommendations. We have included the list of the 200 drugs with the highest utilization
by dual eligibles. If you have comments or questions about this report, please provide
them within 60 days. Please refer to report number OEI-05-14-000170 in all
correspondence.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 18 – Marilyn Tavenner


APPENDIX A

Section 3313 of the Patient Protection and Affordable Care Act of 2010

SEC. 3313. OFFICE OF THE INSPECTOR GENERAL STUDIES AND REPORTS.

(a) STUDY AND ANNUAL REPORT ON PART D FORMULARIES’ INCLUSION
OF DRUGS COMMONLY USED BY DUAL ELIGIBLES.—

(1) STUDY.—The Inspector General of the Department of Health and Human Services
shall conduct a study of the extent to which formularies used by prescription drug plans
and MA-PD plans under Part D include drugs commonly used by full benefit dual
eligible individuals (as defined in section 1935(c)(6) of the Social Security Act
(42 U.S.C. 1396u–5(c)(6)).

(2) ANNUAL REPORTS.—Not later than July 1 of each year (beginning with 2011), the
Inspector General shall submit to Congress a report on the study conducted under
paragraph (1), together with such recommendations as the Inspector General determines
appropriate.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 19 – Marilyn Tavenner


APPENDIX B

Commonly Used Drugs and Rates of Formulary Inclusion

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles
                                      Projected                             Number of    Percentage of
                           Sample                 95-Percent Confidence
 Generic Name                        Number of                             Formularies    Formularies
                             Size*                             Interval*
                                       Scripts*                              Including       Including

 Lisinopril                  4,049   17,526,086   15,331,765–19,720,406           329              100%
 Simvastatin                 3,908   16,947,357   15,003,278–18,891,435           328              100%

 Furosemide                  3,706   14,685,813   13,216,521–16,155,104           329              100%
 Hydrocodone
 Bit/Acetaminophen           4,001   14,666,041   13,199,673–16,132,409           329              100%
 Omeprazole                  3,671   14,385,881   12,805,024–15,966,738           329              100%
 Levothyroxine sodium        3,342   13,657,429   12,044,455–15,270,403           329              100%
 Potassium chloride          2,890   11,003,461   9,736,337–12,270,585            329              100%
 Amlodipine besylate         2,592   10,969,140   9,475,674–12,462,606            329              100%
 Metformin HCl               2,483   10,431,797   8,979,265–11,884,328            329              100%
 Warfarin sodium             2,508   10,037,136   8,168,682–11,905,591            329              100%
 Metoprolol tartrate         2,142    8,581,675   7,404,396–9,758,953             329              100%
 Atorvastatin calcium        1,713    6,979,616   5,816,224–8,143,007             329              100%
 Atenolol                    1,576    6,864,054   5,736,872–7,991,236             329              100%
 Clopidogrel bisulfate       1,506    6,522,574   5,481,166–7,563,982             329              100%
Esomeprazole magnesium       1,485    6,343,762   5,215,704–7,471,819             203               62%
Hydrochlorothiazide          1,431    6,307,800   5,263,081–7,352,520             329              100%
Gabapentin                   1,622    6,059,703   4,960,876–7,158,530             329              100%
Albuterol sulfate            1,341    5,303,805   4,497,290–6,110,319             329              100%
Carvedilol                   1,174    5,049,410   4,177,612–5,921,208             327               99%
Zolpidem tartrate            1,224    4,983,444   4,152,091–5,814,797             325               99%
Glipizide                    1,146    4,822,133   3,980,482–5,663,783             329              100%
 Citalopram hydrobromide     1,310    4,783,877   3,913,182–5,654,572             329              100%
 Alendronate sodium           948     4,614,027   3,660,653–5,567,401             329              100%
 Sertraline HCl              1,261    4,559,228   3,801,869–5,316,588             329              100%
 Ranitidine HCl              1,262    4,455,550   3,592,488–5,318,613             329              100%
 Trazodone HCl               1,174    4,391,732   3,430,134–5,353,330             329              100%
 Oxycodone
 HCl/acetaminophen           1,267    4,276,243   3,399,359–5,153,128             329              100%

 Metoprolol succinate         941     4,184,076   3,375,498–4,992,654             324               98%
 Quetiapine fumarate         1,523    4,095,070   3,274,770–4,915,371             329              100%
 Rosuvastatin calcium         852     3,974,567   3,044,103–4,905,030             290               88%
 Fluticasone/salmeterol       878     3,949,321   3,178,846–4,719,796             317               96%

 Risperidone                 1,209    3,932,051   3,058,980–4,805,122             329              100%
 Tramadol HCl                1,112    3,877,159   3,152,198–4,602,120             329              100%
 Donepezil HCl               1,138    3,759,718   3,126,212–4,393,224             329              100%
                                                                                    continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 20 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                             Projected                              Number of    Percentage of
                                  Sample                  95-Percent Confidence
 Generic Name                               Number of                              Formularies    Formularies
                                    Size*                              Interval*
                                              Scripts *                              Including       Including

 Insulin glargine,hum.rec.anlog      851     3,659,644    3,012,309–4,306,978             314               95%
 Fluticasone propionate              865     3,597,277    2,821,480–4,373,073             329              100%
 Divalproex sodium                  1,020    3,542,033    2,061,502–5,022,565             329              100%
 Pioglitazone HCl                    804     3,437,272    2,640,553–4,233,992             329              100%
 Isosorbide mononitrate              816     3,388,631    2,674,554–4,102,707             329              100%
 Valsartan                           766     3,383,711    2,649,128–4,118,294             232               71%
 Prednisone                          888     3,364,367    2,692,772–4,035,963             329              100%
 Montelukast sodium                  824     3,340,768    2,506,496–4,175,041             329              100%
 Cyclobenzaprine HCl                 784     3,338,445    2,715,574–3,961,316             195               59%
 Diltiazem HCl                       763     3,301,378    2,498,884–4,103,872             329              100%
 Duloxetine HCl                      586     3,260,018    533,248–5,986,789               329              100%
 Pravastatin sodium                  738     3,245,987    2,495,652–3,996,321             329              100%
 Escitalopram oxalate                980     3,108,921    2,491,993–3,725,848             328              100%
 Lovastatin                          645     2,874,074    2,214,791–3,533,357             326               99%
 Tamsulosin HCl                      696     2,800,208    2,150,801–3,449,615             329              100%
 Tiotropium bromide                  577     2,784,574    2,210,013–3,359,135             322               98%
 Clonidine HCl                       726     2,733,778    2,159,082–3,308,475             329              100%
 Digoxin                             736     2,733,625    2,033,296–3,433,954             329              100%
 Ibuprofen                           764     2,718,286    2,101,309–3,335,262             329              100%
 Glimepiride                         538     2,659,533    2,062,079–3,256,986             329              100%
 Paroxetine HCl                      600     2,646,915    1,947,365–3,346,465             329              100%
 Allopurinol                         682     2,601,275    1,988,900–3,213,650             329              100%
 Lisinopril/hydrochlorothiazide      564     2,555,824    1,889,101–3,222,547             328              100%
 Azithromycin                        668     2,525,071    2,168,823–2,881,320             329              100%
 Enalapril maleate                   633     2,514,748    1,861,670–3,167,826             329              100%
 Pantoprazole sodium                 583     2,457,619    1,811,725–3,103,513             328              100%
Clonazepam                           651     2,382,146    1,730,502–3,033,790             329              100%
 Mirtazapine                         721     2,367,499    1,887,649–2,847,349             329              100%
 Memantine HCl                       719     2,362,226    1,788,232–2,936,221             329              100%
 Venlafaxine HCl                     595     2,326,346    1,433,293–3,219,400             329              100%
 Meloxicam                           511     2,291,140    1,806,516–2,775,764             328              100%
 Naproxen                            606     2,254,503    1,719,298–2,789,707             329              100%
 Famotidine                          565     2,194,121    1,620,576–2,767,667             327               99%
 Nifedipine                          533     2,193,852    1,585,621–2,802,083             327               99%
 Alprazolam                          651     2,190,069    1,753,385–2,626,753             248               75%
 Carbamazepine                       621     2,169,900    1,475,462–2,864,338             329              100%
 Spironolactone                      472     2,143,185    1,622,925–2,663,444             329              100%
                                                                                            continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 21 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                            Projected                              Number of     Percentage of
                                 Sample                  95-Percent Confidence
 Generic Name                              Number of                              Formularies     Formularies
                                   Size*                              Interval*
                                             Scripts *                              Including        Including

 Fluoxetine HCl                     553     2,094,592    1,455,602–2,733,581             329              100%
 Pregabalin                         636     2,086,857    1,581,685–2,592,029             329              100%

 Fexofenadine HCl                   580     2,082,626    1,545,892–2,619,361
 Propoxyphene napsylate
 /acetaminophen                     604     2,082,433    1,694,904–2,469,963
 Valsartan/
 hydrochlorothiazide                481     2,069,464    1,412,189–2,726,738             316                96%
 Promethazine HCl                   607     2,021,571    1,703,772–2,339,370             234                71%
 Oxycodone HCl                      617     2,008,292    1,342,448–2,674,137             328              100%
 Glyburide                          483     1,975,413    1,447,101–2,503,725             280                85%
 Aripiprazole                       731     1,970,998    1,465,975–2,476,021             329              100%
 Morphine sulfate                   599     1,931,038    1,160,369–2,701,707             329              100%
 Nitroglycerin                      496     1,900,437    1,411,056–2,389,818             329              100%
 Amitriptyline HCl                  538     1,882,663    1,338,773–2,426,552             329              100%
 Ipratropium/albuterol sulfate      438     1,876,353    1,357,155–2,395,551             321                98%
 Sitagliptin phosphate              404     1,867,218    1,297,783–2,436,654             316                96%
 Lorazepam                          514     1,852,994    1,283,303–2,422,684             311                95%
 Ciprofloxacin HCl                  511     1,847,320    1,555,668–2,138,973             329              100%
 Cephalexin                         527     1,808,242    1,481,756–2,134,727             329              100%
 Meclizine HCl                      462     1,801,969    1,312,952–2,290,986             319                97%
 Bupropion HCl                      509     1,793,546    1,281,807–2,305,286             329              100%
 Triamterene/
 hydrochlorothiazid                 391     1,776,758    1,253,001–2,300,515             329              100%
 Fenofibrate nanocrystallized       404     1,775,090    1,214,001–2,336,179             313                95%
 Sulfamethoxazole/
 trimethoprim                       523     1,764,454    1,458,882–2,070,025             329              100%
 Losartan potassium                 380     1,764,440    1,222,143–2,306,737             329              100%
 Oxybutynin chloride                480     1,740,865    1,345,634–2,136,096             329              100%
 Verapamil HCl                      346     1,703,733    1,230,338–2,177,127             329              100%
 Lansoprazole                       380     1,683,504    1,211,129–2,155,880             263                80%

 Diclofenac sodium                  405     1,648,570    1,164,686–2,132,454             329              100%
 Lidocaine                          466     1,636,160    1,177,128–2,095,192             329              100%
 Latanoprost                        404     1,628,021    1,152,893–2,103,149             329              100%
 Amoxicillin                        418     1,606,735    1,358,388–1,855,083             329              100%
 Ezetimibe                          364     1,592,702    1,118,147–2,067,257             329              100%
 Benztropine mesylate               549     1,590,165    1,078,761–2,101,568             325                99%
 Fentanyl                           423     1,590,156    872,009–2,308,303               329              100%
 Levofloxacin                       431     1,561,579    1,233,302–1,889,856             329              100%
 Insulin aspart                     400     1,521,854    1,143,825–1,899,883             277                84%
 Tolterodine tartrate               393     1,517,053    1,097,902–1,936,203             312                95%
                                                                                           continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 22 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                          Projected                             Number of     Percentage of
                               Sample                 95-Percent Confidence
 Generic Name                            Number of                             Formularies     Formularies
                                 Size*                             Interval*
                                           Scripts*                              Including        Including

 Carisoprodol                     416     1,501,274   968,766–2,033,783               153                47%
 Insulin regular, human           389     1,494,291   1,031,644–1,956,937             329              100%
 Levetiracetam                    502     1,473,031   998,050–1,948,011               329              100%
 Albuterol                        396     1,472,047   792,776–2,151,318
 Olanzapine                       505     1,432,551   981,491–1,883,610               329              100%
 Mometasone furoate               377     1,422,774   980,063–1,865,484               328              100%
 Doxazosin mesylate               307     1,421,563   963,227–1,879,900               329              100%
 Celecoxib                        312     1,420,857   997,347–1,844,367               291                88%
 Ezetimibe/simvastatin            285     1,398,142   894,058–1,902,227               210                64%
 Amlodipine
 besylate/benazepril              278     1,384,176   971,890–1,796,462               317                96%
 Lactulose                        408     1,380,890   932,973–1,828,808               329              100%
 Phenytoin sodium extended        427     1,375,442   973,570–1,777,314               329              100%
 Benazepril HCl                   312     1,367,757   857,318–1,878,195               328              100%
 Ramipril                         293     1,362,475   759,558–1,965,391               325                99%
 Finasteride                      287     1,352,674   966,773–1,738,576               329              100%
 Triamcinolone acetonide          363     1,338,148   1,015,094–1,661,201             329              100%
 Hum Insulin Nph/Reg Insulin
 Hm                               374     1,328,419   979,059–1,677,779               329              100%
 Hydroxyzine HCl                  333     1,322,202   755,736–1,888,668               273                83%
 Ropinirole HCl                   298     1,287,497   760,643–1,814,352               329              100%
 Hydralazine HCl                  336     1,251,590   863,416–1,639,764               329              100%
 Polyethylene glycol 3350         404     1,248,600   909,737–1,587,464               322                98%
 Buspirone HCl                    334     1,240,126   793,876–1,686,376               329              100%

 Estrogens, conjugated            291     1,235,655   832,319–1,638,991               325                99%
 Terazosin HCl                    297     1,208,995   812,220–1,605,771               329              100%
 Metoclopramide HCl               309     1,193,673   805,030–1,582,317               329              100%
 Brimonidine tartrate             263     1,173,338   775,450–1,571,225               329              100%
 Carbidopa/levodopa               366     1,155,427   730,656–1,580,198               329              100%
 Lamotrigine                      436     1,129,854   795,906–1,463,802               329              100%
 Baclofen                         381     1,128,460   756,368–1,500,552               329              100%
 Propranolol HCl                  312     1,109,568   774,300–1,444,835               329              100%
 Ziprasidone HCl                  502     1,107,688   705,145–1,510,231               329              100%
 Diazepam                         317     1,092,935   670,955–1,514,914               329              100%
 Risedronate sodium               269     1,087,393   730,392–1,444,394               247                75%
 Omega–3 acid ethyl esters        243     1,072,683   510,179–1,635,187               306                93%
 Topiramate                       426     1,030,993   649,834–1,412,152               329              100%
 Methocarbamol                    269     1,017,362   505,495–1,529,228               210                64%
 Clotrimazole/betamethasone
 dip                              282     1,010,615   635,191–1,386,040               288                88%
 Methylprednisolone               244      993,034    659,511–1,326,556               329              100%
                                                                                        continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 23 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                          Projected                             Number of     Percentage of
                               Sample                 95-Percent Confidence
 Generic Name                            Number of                             Formularies     Formularies
                                 Size*                             Interval*
                                           Scripts*                              Including        Including

 Ipratropium bromide              247      975,326    594,837–1,355,814               329              100%
 Gemfibrozil                      316      962,455    615,723–1,309,188               329              100%
 Glyburide/metformin HCl          205      950,386    625,458–1,275,314               276                84%
 Acetaminophen with codeine       265      948,099    720,858–1,175,340               329              100%

 Nystatin                         280      946,856    694,658–1,199,055               329              100%
 Amoxicillin/potassium
 clavulanate                      266      906,325    713,848–1,098,802               329              100%
 Ketoconazole                     236      893,572    517,129–1,270,015               329              100%
 Amiodarone HCl                   221      882,707    532,845–1,232,568               329              100%
 Folic acid                       215      870,744    580,327–1,161,162
 Temazepam                        209      870,741    536,789–1,204,692               214                65%
 Doxycycline hyclate              266      863,594    671,393–1,055,796               329              100%
 Niacin                           221      854,672    490,113–1,219,231               329              100%
 Sucralfate                       217      854,101    511,084–1,197,117               329              100%
 Pramipexole Di–HCl               187      850,734    436,128–1,265,340               329              100%
 Neutrap protamine hagedorn,
 human insulin isophane           207      841,706    553,217–1,130,196               329              100%
 Insulin detemir                  181      838,194    523,273–1,153,115               320                97%
 Oxcarbazepine                    285      822,165    477,951–1,166,378               329              100%
 Nitrofurantoin monohydrate/
 macrocrystals                    204      806,300    541,167–1,071,433               309                94%
 Solifenacin succinate            171      795,224    428,361–1,162,087               271                82%
 Hydroxyzine pamoate              212      794,850    378,738–1,210,961               177                54%
 Dicyclomine HCl                  205      761,078    474,731–1,047,425               267                81%
 Metolazone                       200      754,643    489,775–1,019,510               321                98%
 Budesonide/formoterol
 fumarate                         182      739,927    503,057–976,797                 292                89%

 Darifenacin hydrobromide         178      729,078    418,090–1,040,066               149                45%
 Bimatoprost                      140      726,619    422,202–1,031,037               290                88%
 Hydrocortisone acetate           141      722,972    361,614–1,084,330               167                51%

 Ergocalciferol (Vitamin D2)      199      722,170    452,905–991,434
 Nabumetone                       171      720,777    453,343–988,210                 321                98%
 Isosorbide dinitrate             147      719,742    323,296–1,116,188               329              100%
 Torsemide                        165      710,217    291,404–1,129,030               321                98%
 Olopatadine HCl                  186      707,858    417,593–998,124                 284                86%
 Lithium carbonate                221      705,974    384,907–1,027,041               329              100%
 Timolol maleate                  203      703,462    452,117–954,807                 329              100%
 Tizanidine HCl                   284      702,405    440,132–964,678                 329              100%
 Irbesartan/
 hydrochlorothiazide              128      692,517    322,754–1,062,280               282                86%
 Dutasteride                      134      690,427    364,954–1,015,900               299                91%
                                                                                        continued on next page




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 24 – Marilyn Tavenner

Table B-1: 200 Drugs With the Highest Utilization by Dual Eligibles, continued
                                                     Projected                                        Number of         Percentage of
                                       Sample                        95-Percent Confidence
 Generic Name                                       Number of                                        Formularies         Formularies
                                         Size*                                    Interval*
                                                      Scripts*                                         Including            Including

 Fluconazole                                204         681,807     532,325–831,289                            329                100%
 Travoprost                                 194         681,615      470,043–893,187                           278                84%
 Ibandronate sodium                         130         681,499     339,583–1,023,415                          317                96%
 Estradiol                                  121         680,842     341,234–1,020,449                          329                100%
 Losartan/hydrochlorothiazide               146         661,914     362,115–961,712                            328                100%
 Cinacalcet HCl                             171         661,514     343,657–979,372                            329                100%
 Haloperidol                                257         652,766      427,602–877,930                           329                100%
 Aspirin/dipyridamole                       162         651,442     334,771–968,114                            328                100%
 Raloxifene HCl                             138         650,060      267,583–1,032,537                         329                100%
 Medroxyprogesterone
 acetate                                    131         646,445      316,771–976,120                           329                100%

 Megestrol acetate                          161         611,738     387,587–835,890                            329                100%
 Labetalol HCl                              146         603,265     292,698–913,832                            329                100%
 Fenofibrate                                131         597,584      365,922–829,245                           328                100%
 Calcitriol                                 135         587,342     316,836–857,847                            329                100%
 Metronidazole                              157         585,344     407,663–763,025                            329                100%
 Clozapine                                  181         582,542     145,263–1,019,820                          329                100%
 Insulin lispro                             160         579,111     334,382–823,840                            264                80%
 Diphenoxylate HCl/atropine                 132         573,335     241,642–905,028                            250                76%

 Sotalol HCl                                130         550,800     174,131–927,469                            329                100%
Source: OIG analysis of drugs commonly used by dual eligibles, 2014. 

*Sample is from the 2010 Medicare Current Beneficiary Survey. Projections and confidence intervals are derived from its survey

methodology. 





Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 25 – Marilyn Tavenner


APPENDIX C

Five Drugs Commonly Used by Dual Eligibles and Not Covered Under Part D

                Generic Name                                       Reason Excluded Under Part D
                                                                        No longer prescribed without
                Albuterol*
                                                                                             sulfate
                Fexofenadine HCl*                                               Nonprescription drug
                Folic acid*                                               Vitamin or mineral product
                Propoxyphene                                       No longer available in the United
                napsylate/acetaminophen*                                                      States

                Ergocalciferol (Vitamin D2)                               Vitamin or mineral product
               Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2014.
               * These drugs were also on the 2013 report’s list of drugs commonly used by dual eligibles
               and not covered under Part D.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 26 – Marilyn Tavenner


APPENDIX D

Inclusion of Commonly Used Drugs by Formularies in Stand-Alone Prescription
Drug Plans* and in Medicare Advantage Prescription Drug Plans**, by Region

Table D-1: PDP Formularies’ Inclusion of Commonly Used Drugs, by Region
 PDP                                                 Number of                 Average Rate of                     Maximum
             State(s)                                                                               Minimum Rate
 Region                                                 PDPs          Inclusion by Formularies                         Rate
 1           Maine, New Hampshire                              30                             95%           86%        99%
             Connecticut, Massachusetts,
 2
             Rhode Island, Vermont                             31                             95%           86%        99%
 3           New York                                          29                             95%           86%        99%
 4           New Jersey                                        32                             95%           86%        99%
             Delaware, the District of
 5
             Columbia, Maryland                                34                             96%           86%       100%
 6           Pennsylvania, West Virginia                       37                             95%           86%       100%
 7           Virginia                                          33                             95%           86%        99%
 8           North Carolina                                    32                             95%           86%        99%
 9           South Carolina                                    33                             95%           86%        99%
 10          Georgia                                           32                             95%           86%        99%
 11          Florida                                           33                             95%           86%        99%
 12          Alabama, Tennessee                                33                             95%           86%        99%
 13          Michigan                                          34                             95%           86%        99%
 14          Ohio                                              35                             95%           86%        99%
 15          Indiana, Kentucky                                 33                             95%           86%        99%
 16          Wisconsin                                         31                             94%           86%        99%
 17          Illinois                                          36                             94%           86%        99%
 18          Missouri                                          33                             95%           86%        99%
 19          Arkansas                                          32                             95%           86%        99%
 20          Mississippi                                       31                             95%           86%        99%
 21          Louisiana                                         31                             95%           86%        99%
 22          Texas                                             34                             95%           86%        99%
 23          Oklahoma                                          34                             95%           86%        99%
 24          Kansas                                            31                             94%           86%        99%
             Iowa, Minnesota, Montana,
 25          Nebraska, North Dakota, South
             Dakota, Wyoming                                   32                             95%           86%        99%
 26          New Mexico                                        34                             95%           86%        99%
 27          Colorado                                          32                             95%           86%        99%
 28          Arizona                                           32                             95%           86%        99%
 29          Nevada                                            32                             95%           86%        99%
 30          Oregon, Washington                                33                             95%           86%        99%
 31          Idaho, Utah                                       35                             95%           86%        99%
 32          California                                        34                             95%           86%        99%
 33          Hawaii                                            27                             95%           86%        99%
 34          Alaska                                            26                             95%           86%        99%
Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2014.

*PDPs.
**MA-PDs.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
Page 27 – Marilyn Tavenner

Table D-2: MA-PD Formularies’ Inclusion of Commonly Used Drugs, by Region
                                                                                     Average Rate of
 MA-PD                                                           Number of
                State(s)                                                                Inclusion by   Minimum Rate   Maximum Rate
 Region***                                                         MA-PDs
                                                                                        Formularies
 1              Maine, New Hampshire                                       41                   94%            90%           100%
                Connecticut, Massachusetts, Rhode
 2
                Island, Vermont                                            77                   96%            90%           100%
 3              New York                                                 188                    95%            89%           100%
 4              New Jersey                                                 30                   96%            93%            98%
                Delaware, the District of Columbia,
 5
                Maryland                                                   27                   96%            93%           100%
 6              Pennsylvania, West Virginia                              159                    97%            89%           100%
 7              North Carolina, Virginia                                 111                    96%            89%           100%
 8              Georgia, South Carolina                                    80                   96%            89%           100%
 9              Florida                                                  303                    98%            87%           100%
 10             Alabama, Tennessee                                         67                   97%            93%            98%
 11             Michigan                                                   60                   96%            92%           100%
 12             Ohio                                                       88                   96%            89%           100%
 13             Indiana, Kentucky                                          65                   96%            89%            98%
 14             Illinois, Wisconsin                                      122                    96%            89%           100%
 15             Arkansas, Missouri                                         82                   96%            87%            99%
 16             Louisiana, Mississippi                                     62                   97%            93%            98%
 17             Texas                                                    132                    96%            89%            99%
 18             Kansas, Oklahoma                                           52                   96%            93%            98%
                Iowa, Minnesota, Montana, Nebraska,
 19             North Dakota, South Dakota,
                Wyoming                                                    85                   97%            88%           100%
 20             Colorado, New Mexico                                       71                   97%            89%           100%
 21             Arizona                                                    68                   96%            90%           100%
 22             Nevada                                                     25                   95%            90%            98%
 23             Idaho, Oregon, Utah, Washington                          151                    96%            89%           100%
 24             California                                               261                    96%            89%           100%
 25             Hawaii                                                     18                   98%            96%           100%
Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2014.
***Region 26, which covers Alaska, had no MA-PDs available for 2013.




Part D Plans Generally Include Drugs Commonly Used by Dual Eligibles: 2014 (OEI-05-14-00170)
